                 NATIONAL ENDOWMENT FOR THE ARTS
               OFFICE OF INSPECTOR GENERAL


             LIMITED SCOPE AUDIT REPORT
                                    ON SELECTED
                                   NEA GRANTS TO

                     ILLINOIS ARTS COUNCIL
                                         Chicago, IL

                               REPORT NO. LS-12-01

                                        April 4, 2012




                           REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be
posted on the National Endowment for the Arts (NEA) website not later than three (3) days after it is
made publicly available with the approval of the NEA Office of Inspector General.
Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public. Furthermore, information contained in
this report should not be used for purposes other than those intended without prior consultation with
the NEA Office of Inspector General regarding its applicability.
                                INTRODUCTION
BACKGROUND
The Illinois Arts Council (Council) was created as a state agency by the Illinois General
Assembly in 1965. The Council’s mission is to build “a strong, creative, and connected
Illinois through the engagement of all Illinoisans in the pursuit of, participation in, and
enjoyment of the arts." The agency is governed by up to twenty-one private citizens
chosen for their demonstrated commitment to the arts and appointed by the Governor to
serve in a voluntary capacity to develop the state’s public arts policy and foster quality
culturally diverse programs. Resources to support the Illinois Arts Council are provided
by the Governor, General Assembly of Illinois, and the National Endowment for the Arts.

OBJECTIVE, SCOPE AND METHODOLOGY

Limited scope audits involve a limited scope review of financial and non-financial
information of grant recipients to ensure validity and accuracy of reported information,
and compliance with state and Federal requirements. The objective of this limited scope
audit was to determine whether:

   •   The grantee fulfilled the financial and compliance requirements as set forth in the
       grant awards;
   •   The total project costs claimed under the grants were reasonable, allocable and
       allowable;
   •   The required match was met on National Endowment for the Arts (NEA) grant
       funds.

Our audit was conducted in accordance with the Government Auditing Standards (2007),
issued by the Comptroller General of the United States. Accordingly, we included such
tests of records and other auditing procedures that were considered necessary under the
circumstances. The “Standards” require that we obtain sufficient, competent, and
relevant evidence to afford a reasonable basis for our findings and conclusions. We
reviewed the Council’s system of internal control and judgmentally selected a sample of
transactions for testing from each of the grants reviewed. In addition, we evaluated the
recipient’s compliance with the U.S. Office of Management and Budget (OMB) and NEA
guidance for the management of the American Reinvestment and Recovery Act of 2009
(Recovery Act) funding.

The Recovery Act provided $50 million to the NEA to be distributed in direct grants to
fund arts projects and activities which preserve jobs in the nonprofit arts sector threatened
by declines in philanthropic and other support during the current economic downturn.
Consistent with the language in the Act, eligible projects are generally limited to salary
support and fees for artists or contracted personnel. Forty percent of such funds were
distributed to State arts agencies and regional arts organizations and 60 percent of the
funds were competitively awarded to nonprofit organizations that met the eligibility
criteria established for this program. For organizations eligible to subgrant, such as State
arts agencies, funds could also be used to cover the cost of implementing the subgranting
program.

During the period under review, the Council had five NEA grants active with awards
totaling $4,050,825. However, due to time constraints our audit was limited to three
grants in which NEA funds had been drawn down and costs had been reported: Grant No.
09-6100-2054 in the amount of $934,500, Grant No. 08-6100-2020 in the amount of
$857,800 and the Recovery Act Award Grant No. 09-6188-2090 in the amount of
$361,600.

PRIOR AUDIT COVERAGE
During the past five years, the NEA Office of Inspector General (OIG) has not issued any
audit reports on Federal grants awarded to the Illinois Arts Council. However, the
Council was included in the State of Illinois’ (State) OMB Circular A-133 audit for the
year ended June 30, 2009. The State’s financial statements were audited by McGladrey
& Pullen, LLC, an independent public accounting firm. The independent audit resulted in
an unqualified (clean) opinion on the financial statements. There were no findings
indicated in the State’s A-133 audit report that were applicable to the Council.

“The Auditor General is required by the Illinois State Auditing Act to conduct, as is
appropriate to the agency's operations, a financial audit and/or compliance examination of
every State agency at least once every two years.” The Council’s biennial examination
was performed by Robert J. Ripp & Associates, Frankfort, Illinois as Special Assistant
Auditors for the Auditor General, State of Illinois.

The auditors did not identify any deficiencies in internal control over compliance that
were considered to be material. However, three instances of noncompliance were
disclosed:

   •   09-01 The Illinois Arts Council did not draft or adopt formal agency rules,
       including rules relating to grant procedures.

   •   09-02 The Council had Council Members whose terms had expired and the total
       number of Council Members was less than required by statute

   •   09-03 The Council paid for services from the incorrect fiscal year appropriation.

We requested the status of corrective actions to address the three findings:

   •   Finding number 09-01, we were informed that the Council had not formalized its
       policies. However, the Council is working with its current auditors, McGreal &
       Company, PC and the Illinois Auditor General’s Office to resolve this finding.
       The Council has drafted internal organizational rules and grant procedures.



                                                                                          2
       The lack of formal policies and procedures could impact the Council’s ability to
       effectively manage Federal awards; therefore, we will include this finding in our
       recommendations.

   •   Finding number 09-02, we were informed that all expired terms had been re-
       appointed and all vacancies have been filled with new appointments by the
       Governor. These members serve in a voluntary capacity for 4-year terms.

       We verified that the Council has 21 Council members as required; therefore have
       no further recommendations.

   •   Finding number 09-03, we were informed the Council strictly adheres to the State
       Finance Act which requires appropriated funds be used in the fiscal year in which
       the service was rendered. Since the audit report, there have been no new findings
       of contractual service payments being made from the incorrect fiscal year
       appropriations.

       This finding appeared to be an isolated case and our review of grant transactions
       did not identify any payments or transactions outside the award period, therefore
       we have no further recommendations.

RESULTS OF AUDIT
The Council’s financial management system is administered in conjunction with the State
of Illinois. Our audit concluded that the Council complied with the financial
management system and recordkeeping requirements established by OMB and NEA for
its Recovery Act funds under Grant No. 09-6188-2090. The Council did not charge salary
expenses to this grant; therefore, personnel activity reports were not required.

The Council’s financial management system adequately tracks other NEA awards and
monitors the activities and expenditures of subrecipients. However, we found that
internal controls could be strengthened and we identified instances of noncompliance
with NEA and OMB requirements. The Council did not maintain personnel activity
reports, did not maintain adequate documentation to support amounts used for Federal
reporting and did not have a formal manual/handbook, which contains policies and
procedures relating specifically to managing Federal awards.

RECOVERY ACT AWARD

The Council received $361,600 in American Recovery and Reinvestment Act funds from
the NEA. The Council’s Recovery Act grant was used to provide 19 awards, totaling
$358,600, to support projects and activities that preserve jobs in the arts. The remaining
$3,000 was used for administration of the subgranting program. The Council did not
charge salary expenditures to this award. Our review determined the Council complied
with the financial management system and recordkeeping requirements established by
OMB and NEA, such as maintaining subrecipients listing, submitting quarterly reports

                                                                                           3
timely and separately identifying Recovery Act funds in its financial management
system.

INTERNAL CONTROLS
Personnel Activity Reports

The Council did not maintain personnel activity (time and effort) reports for its NEA
partnership grants. At the time of the award, personnel activity reports were required for
all employees whose salaries and fringe benefits are charged, in whole or in part, to either
the award or the matching funds if the award is $50,000 or more. This requirement is
mandated by OMB and is detailed in NEA’s General Terms. A sample personnel activity
report is also provided in the General Terms, which states in part:

       For every employee whose salary is charged to an NEA grant, as a whole or in part, to either
       the award or the matching funds if the award is $50,000 or greater, personnel activity
       reports must be maintained to account for all compensated time including time spent on
       other activities. Reports must be prepared at least monthly and must coincide with one or
       more pay periods.

As a result of not maintaining personnel activity reports, we are questioning salaries and
fringe benefits in the amount of $3,116,576 for the two partnership grants reviewed.
However, if all of the questioned costs were disallowed under each of the grants, the
matching requirements would still be met and no refund would be due to the NEA (see
Appendix I).

   Questioned Salaries

   09-6100-2054 - $1,360,967
   08-6100-2020 - $1,755,609
      Total       $3,116,576

We recommend the Council develop written policies and implement procedures to ensure
that individual personnel activity reports are maintained for employees whose salaries are
charged, in whole or in part, to future grant awards that are $50,000 or more.

Supporting Documentation

The Council extracts financial reports from the Illinois State financial management
system to determine total outlays for Federal financial reporting. During our review, the
Council was unable to provide the actual reports used for the grants reviewed. Therefore,
the report totals extracted during our site visit were different from the Federal Financial
Reports (FFR) and Final Descriptive Reports (FDR) submitted for the two partnership
grants review. The discrepancies could be due to adjustments, timing or the parameters
used to extract the data. To ensure accurate reporting of grant costs, an organization is
required to maintain worksheets and/or separate accounts in the ledger or subsidiary
ledger for each grant.

                                                                                                  4
We recommend the Council develop and implement written policies and procedures to
ensure that documentation, such as reports from its financial system, is maintained to
support amounts used for Federal reporting to ensure accurate and consistent reporting.

Financial Reports

During our review, we found that the Council’s Federal Financial Reports (FFR) and
payment requests submitted to NEA were improperly completed. The Council reported
only the required one-to-one matching amount and not actual costs. The Requests for
Payment incorrectly included amounts identified as “advances.”

We recommended the Council review the instructions for completing both the Requests
for Advance and/or Reimbursements and the FFR to ensure that forms are accurate and
completed properly.

Subsequent to our on-site review, the Council submitted its Federal Financial Report,
which was properly completed. Therefore, we consider this finding implemented and no
further action is necessary.

We recommend the Council develop and implement policies and procedures to ensure
that FFRs and Requests for Advance and/or Reimbursements are accurate and completed
properly. Those procedures should ensure that employees who prepare the reports are
familiar with instructions for completing the forms.

Formal Policies and Procedures for the Management of Federal Awards

The Council did not have formal policies and procedures in place for grant management.
We were provided two draft documents; however, neither had been approved by the
Board or state officials. Our review determined that the policies lacked sufficient
information on Federal requirements. In particular, it did not refer to OMB Circulars A-
102 and A-87 (2 CFR 225) or NEA guidelines which provides guidance on cost
requirements and a determination of allowable or unallowable costs. We also found that
the FY 2009 examination recommended that the Council "draft organizational rules and
grant procedures, then contact the Joint Committee on Administrative Rules for
assistance with the formal adoption process...”

While the Council does follow the Illinois State Accounting Policies & Procedures, we
believe that the Council’s internal controls would be further strengthened if the Council
formalized many of the Federal policies and procedures, and guidance available on grants
and accounting matters. This manual/handbook could contain publications such as the
General Terms and Conditions for Grants, the Financial Management Guide for State &
Local Governments, the OMB Circulars and other publications on Federal requirements.
It could also include procedures for maintaining personnel activity reports and
preparation of final reports including maintaining supporting documentation.



                                                                                           5
We recommend that the Council develop a formal manual/handbook, which contains
policies and procedures relating specifically to managing Federal awards.

EXIT CONFERENCE

An exit conference was held with Council officials on December 1, 2011. Subsequent to
our site visit, a telephone exit conference was held with the Council officials on
Wednesday, March 28, 2012. The Council officials concurred with our findings and
recommendations.

                          RECOMMENDATIONS
We recommend that the Illinois State Arts Council:

   1. Develop and implement written policies and procedures to ensure that individual
       personnel activity reports are maintained for employees whose salaries are
       charged, in whole or in part, to future grant awards that are $50,000 or more.

   2. Develop and implement written policies and procedures to ensure that
      documentation, such as reports from its financial system, is maintained to support
      amounts used for Federal reporting.

   3. Develop and implement policies and procedures to ensure that FFRs and Requests
      for Advance and/or Reimbursements are accurate and completed properly. Those
      procedures should ensure that employees who prepare the reports are familiar
      with instructions for completing the forms.

   4. Develop and implement a written manual/handbook containing policies and
      procedures relating specifically to managing Federal awards.




                                                                                        6
                                                     APPENDIX I

ILLINOIS ARTS COUNCIL

Grant Number 09-6100-2054

Total Outlays                                   $ 8,648,942
Less: Questioned Salary Expenses                 (1,360,967)

Adjusted Total Outlays                           7,287,975
NEA Share                                         (934,500)
Subtotal                                          6,353,475
Illinois Arts Council Matching Requirement        (934,500)
Amount in Excess of the Matching Requirements   $ 5,418,975

Grant Number 08-6100-2020

Total Outlays                                   $15,286,287
Less: Questioned Salary Expenses                ( 1,755,609)

Adjusted Total Outlays                           13,530,678
NEA Share                                          (857,800)
Subtotal                                         12,672,878
Illinois Arts Council Matching Requirement         (857,800)
Amount in Excess of the Matching Requirements   $11,815,078




                                                               7
